<html>
<title> - S. 2836, THE PREVENTING EMERGING THREATS ACT OF 2018: COUNTERING MALICIOUS DRONES</title>
<body><pre>[Senate Hearing 115-476]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-476

   S. 2836, THE PREVENTING EMERGING THREATS ACT OF 2018: COUNTERING 
                            MALICIOUS DRONES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              JUNE 6, 2018

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        
        
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
34-314 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>               
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, North Dakota            KAMALA D. HARRIS, California
STEVE DAINES, Montana                DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
        Christopher S. Boness, Senior Professional Staff Member
               Margaret E. Daum, Minority Staff Director
             J. Jackson Eaton IV., Minority Senior Counsel
                 Subhasri Ramanathan, Minority Counsel
  Donna M. Peterson, Minority Federal Bureau of Investigation Detailee
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Lankford.............................................    12
    Senator Hassan...............................................    15
    Senator Heitkamp.............................................    22
    Senator Carper...............................................    24
    Senator Hoeven...............................................    27
Prepared statements:
    Senator Johnson..............................................    39
    Senator McCaskill............................................    40

                               WITNESSES
                        Wednesday, June 6, 2018

Hon. David J. Glawe, Under Secretary for Intelligence and 
  Analysis, U.S. Department of Homeland Security.................     5
Hayley Chang, Deputy General Counsel, U.S. Department of Homeland 
  Security.......................................................     7
Scott Brunner, Deputy Assistant Director, Critical Incident 
  Response Group, Federal Bureau of Investigation, U.S. 
  Department of Justice..........................................     7
Angela H. Stubblefield, Deputy Associate Administrator for 
  Security and Hazardous Materials Safety, Federal Aviation 
  Administration, U.S. Department of Transportation..............     9

                     Alphabetical List of Witnesses

Brunner, Scott:
    Testimony....................................................     7
    Prepared statement...........................................    54
Chang, Hayley:
    Testimony....................................................     7
    Prepared statement...........................................    44
Glawe, Hon. David J.:
    Testimony....................................................     5
    Prepared statement...........................................    44
Stubblefield, Angela H.:
    Testimony....................................................     9
    Prepared statement...........................................    57

                                APPENDIX

Letter from St. Louis Cardinals..................................    71
Letter from Northern Plains Unmanned Aircraft Systems Test Site..    75
Statements submitted for the Record:
    American Civil Liberties Union...............................    77
    Kirstjen Nielsen, Secretary, U.S. Department of Homeland 
      Security...................................................    80
    Security Industry Association................................    82
    National Football League.....................................    83
Responses to post-hearing questions for the Record:
    Mr. Glawe and Ms. Chang......................................    86
    Mr. Brunner..................................................   123
    Ms. Stubblefield.............................................   145

 
                    S. 2836, THE PREVENTING EMERGING
            THREATS ACT OF 2018: COUNTERING MALICIOUS DRONES

                              ----------                              


                        WEDNESDAY, JUNE 6, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:59 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Hoeven, Daines, 
McCaskill, Carper, Heitkamp, Peters, Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to thank our witnesses for your time here today and 
agreeing to appear, for your testimony, and I look forward to 
your answers to our questions.
    I would like to ask consent that my prepared statement, be 
entered in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    We also have a letter of support from the Security Industry 
Association that I would also like to have entered in the 
record,\2\ without objection. Senator McCaskill.
---------------------------------------------------------------------------
    \2\ The letter referenced by Senator Johnson appears in the 
Appendix on page 82.
---------------------------------------------------------------------------
    Senator McCaskill. No objection.
    Chairman Johnson. OK. Did you want to----
    Senator McCaskill. Yes, Mr. Chairman, I would like to place 
into the record testimony that has been provided by the 
Director of Security and Special Operations of the St. Louis 
Cardinals.\3\ I am really proud that the Cardinals are one of 
only four Major League Baseball (MLB) teams to achieve the 
``SAFETY'' designation and distinction from the Department of 
Homeland Security (DHS) by working countless hours to make sure 
that their stadium facility is secure and that they have the 
proper procedures and protocol and training in place for the 
personnel there to keep the best fans in baseball happy, 
secure, and having a wonderful time with their families. They 
have submitted testimony on this subject to the Committee, and 
I would ask that this testimony be made part of the record 
today.
---------------------------------------------------------------------------
    \3\ The letter referenced by Senator McCaskill appears in the 
Appendix on page 71.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Milwaukee fans are pretty good, too.
    Senator McCaskill. Not as good as Cardinals. Sorry. 
[Laughter.]
    More World Series than everyone but the New York Yankees.
    Chairman Johnson. OK.
    Senator McCaskill. We do not have the payroll or the 
market. [Laughter.]
    Sorry. Do not get me started.
    Chairman Johnson. On that note of nonpartisanship, we had a 
secure briefing yesterday, and a number of you were in 
attendance. I appreciate that. I am always leery of holding in 
open session these hearings on different threats because I 
really do not want to give the bad guys any ideas. I am 
certainly willing to make an exception in this case because I 
think the threats are just so incredibly obvious, and one thing 
that made a pretty big impression on me, which is why we have a 
video screen set up--if we can run it right now--is a video 
that was shown in that setting, which is totally not secure. 
This is the Islamic State of Iraq and Syria (ISIS) video put 
out on YouTube to basically brag about what their capabilities 
are when it comes to the use of drones. So why do we not 
quickly show that for the Committee.
    [Video played.]
    This is an ISIS drone all ready to drop a grenade on an 
Iraqi target. It looks like something coming out of the U.S. 
Defense Department (DOD), quite honestly, when we get it to 
run. It looks like something out of our Defense Department, but 
this is from ISIS. This is all part of their propaganda. If we 
can get this thing going?
    Senator Carper. Well, their drones are slow. [Laughter.]
    Chairman Johnson. They are really not. It is well worth 
seeing, so we will take----
    Senator McCaskill. Who is trying to run it?
    [Video played.]
    Chairman Johnson. It is a good thing I am not in charge 
because it would never get done.
    Senator Carper. What are we looking at?
    Chairman Johnson. So this is a YouTube video posted by 
ISIS, and it is showing their use of a drone against an Iraqi 
site. I am not exactly sure. Maybe one of the witnesses can 
tell us what they are actually using the drone against.
    Mr. Brunner. Chairman, it is our understanding that ISIS is 
targeting an Iraqi counter-improvised explosive device (IED) 
unit that is approaching a location.
    Chairman Johnson. OK. Are we going to get it? OK. So you 
can go on YouTube and actually see it for yourself, but it is 
frightening. And as we began this discussion--and, really, from 
my standpoint, the discussion started when I was interviewing 
Secretary Nielsen for her current position, and she said that 
her top priority was getting the authority to counter this 
emerging threat that I think we are so far behind the curve on. 
I was shocked. I just assumed that if there were drones 
threatening, whether it is the Cardinals baseball stadium, the 
Brewers stadium, or whatever the U.S. Secret Service (USSS) 
trying to protect our President or Vice President, activities 
along the border, we have no authority to counter those drones. 
We have given some limited authority to the Defense Department, 
and that is about it. They are kind of in the early stages of 
working with the Federal Aviation Administration (FAA), and it 
sounds like it is a very cooperative effort here, which we 
need. So from my standpoint, the piece of legislation we have 
introduced with bipartisan cosponsors, the Preventing Emerging 
Threats Act of 2018, is just a table stakes piece of 
legislation.
    One of the reasons I wanted to hold this hearing today, we 
have the debate and hopefully the passage of the National 
Defense Authorization Act (NDAA) coming up over the course of 
the next couple of weeks. It is my goal to get this piece of 
legislation attached to that, hopefully just in the manager's 
amendment, so we give DHS and the agencies under the Department 
of Justice (DOJ) the authority, just the table stakes authority 
to begin the process, the very complex process, of addressing 
this threat that has really been there, and we should thank our 
lucky stars that we have not seen a real tragic incident coming 
from this.
    Again, I appreciate the witnesses being here. With that, I 
will turn it over to our Ranking Member.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Mr. Chairman, and thank you 
for holding the hearing. I look forward to continued work with 
you on this bill and that we can hopefully continue to adjust 
and take input to provide the kinds of authorities needed for 
our government to keep us safe, while at the same time protect 
Americans' privacy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 40.
---------------------------------------------------------------------------
    The Department of Transportation (DOT) estimates that there 
could be as many as 4 million drones owned and operated by 
recreational and commercial users by 2021, and the FAA 
estimates that recreational and commercial drone sales will 
increase to 7 million by 2020. We know that drones can be used 
for good and for bad. People fly them for fun and use them to 
take amazing aerial photographs. They are used for crop 
dusting, newscasting, and I understand that they have great 
potential for precision agriculture, which is so necessary 
today in light of all the challenges and stresses that our 
farming families face in terms of input costs.
    Drones also play a critical role for public safety. We know 
they support firefighting, search and rescue operations, and 
that they monitor critical infrastructure. We are constantly 
innovating in America, and in just a few years drone 
capabilities and advancements may far exceed our imagination 
today. We must encourage and foster that innovation in 
Congress.
    But, unfortunately, drones have the potential to cause 
great harm. Terrorist organizations, as the Chairman has just 
indicated, have used drones overseas, and we expect that 
terrorists are interested in exploiting those same capabilities 
here in the United States.
    The Federal Bureau of Investigation (FBI) Director has 
testified that the threat of that terrorists will use drones in 
the United States is imminent. As the Director explained to 
this Committee, drones are easy to acquire and operate but are 
``quite difficult to disrupt and monitor.'' That is the 
challenge we face: how to disrupt and monitor the bad guys 
without interfering with privacy or recreational uses of these 
instruments by the American public.
    Then-Acting Secretary Elaine Duke testified that drones 
could be used to transport illicit materials or for violent 
purposes, and that we lack the signals to interdict drones. 
Just last month, we heard from Secretary Nielsen, who expressed 
concern about drones as a ``very serious, looming threat,'' and 
that the Department is unable to effectively counter malicious 
use of drones because they are hampered by Federal laws enacted 
long before the unmanned technology existed.
    I would really like to hear DHS and DOJ address today, in 
this public hearing, how they can help owners and operators of 
critical infrastructure secure mass gatherings. I understand 
that you do not have this authority yet, but if you do, I want 
to know how you intend to leverage your authority to help State 
and local stakeholders. What do they get out of Congress 
passing this bill? What do the people that are running the 4th 
of July parade in Webster Groves get from this legislation? How 
are we helping them address the threat where it will really 
come home? And, that is, through the interdiction of drones in 
situations where casualties could occur by people who want to 
destroy not just the United States but our way of life.
    I want to thank the DHS, FBI, and FAA for working with the 
Committee to help develop the language in our bill. It was 
informed by the findings of an interagency group, which I 
understand you were all a part of, that identified impediments 
and gaps in the Federal Government's ability to respond. The 
interagency committee concluded that without changes in the 
law, Federal agencies will be prevented from developing, 
testing, evaluating, and countering most drone technologies 
that we need to address.
    I look forward to hearing from our witnesses today about 
how this act helps you address these gaps and impediments. I 
also look forward to hearing from other stakeholders, many who 
I understand will submit statements for the record about ways 
in which we can ensure that any legitimate concerns are 
addressed before we move a bill out of Committee.
    We have a real security threat that I think we must 
address, and I look forward to working with the Chairman to 
make sure that our legislative approach is the right one.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Glawe. I do.
    Ms. Chang. I do.
    Mr. Brunner. I do.
    Ms. Stubblefield. I do.
    Chairman Johnson. Please be seated.
    Our first witness is the Honorable David Glawe. Mr. Glawe 
is the Under Secretary for Intelligence and Analysis at the 
Department of Homeland Security. Prior to his confirmation, he 
was a Special Assistant to the President and served several 
years as the Assistant Commissioner and Chief Intelligence 
Officer in Customs and Border Protection (CBP) for DHS. Mr. 
Glawe has a certificate from the John F. Kennedy School of 
Government at Harvard University and a Bachelor of Arts degree 
from the University of Northern Iowa. He has also received the 
National Intelligence Superior Service Medal for his work 
supporting the intelligence community and promoting our 
national security. Mr. Glawe.

 TESTIMONY OF THE HONORABLE DAVID J. GLAWE,\1\ UNDER SECRETARY 
  FOR INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Glawe. Chairman Johnson, thank you, Ranking Member 
McCaskill as well, thank you.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Glawe and Ms. Chang appears 
in the Appendix on page 44.
---------------------------------------------------------------------------
    Chairman Johnson, Ranking Member McCaskill, and 
distinguished Members of the Committee, thank you for inviting 
DHS to speak with you today. We appreciate the opportunity to 
discuss the Department of Homeland Security's role in 
countering threats from unmanned aircraft systems (UAS) or 
drones, in our national airspace system (NAS).
    First, I would like to thank the Committee for its 
attention to this issue and holding this hearing to highlight 
the critical importance of the interagency efforts to secure 
the national airspace. I would also like to thank Chairman 
Johnson, Ranking Member McCaskill, and the other Members of 
this Committee for introducing and cosponsoring a bill that 
addresses security threats from small unmanned aircraft 
systems. With enactment of this proposal, Congress would reduce 
risks to public safety and national security and ensure that 
the United States remains a global leader in unmanned aircraft 
innovation.
    Unmanned aircraft systems offer tremendous benefits to our 
economy and society. They promise to create countless American 
jobs, transform the delivery of household goods, improve safety 
of dangerous occupations, and expand access to life-saving 
medical supplies. DHS strongly supports the Federal Aviation 
Administration's efforts to integrate unmanned aircraft systems 
into our national airspace. We must also recognize the 
increasing security challenges that require a layered and 
parallel government security response to protect the public 
from the misuse of this technology.
    This threat is real. We are witnessing a constant evolution 
in the danger posed by drones as the technology advances and 
becomes more available and affordable worldwide. Commercially 
available drones can be employed by terrorists and criminals to 
deliver explosives or harmful substances, conduct surveillance 
both domestically and internationally against U.S. citizens' 
interests and assets. We know ISIS fighters in Iraq and Syria 
have used unmanned aircraft to deliver explosives and continue 
to plot unmanned aircraft use in terrorist attacks elsewhere. 
This is a significant threat to the homeland.
    The technology also presents a growing risk to law 
enforcement officers as they execute their mission. On the 
Southern Border, transnational criminal organizations (TCOs) 
are using drones to traffic narcotics and conduct 
countersurveillance to avoid U.S. law enforcement and interfere 
with ongoing law enforcement operations. The U.S. Coast Guard 
(USCG) is also observing increased overflights of unmanned 
aircraft while performing its missions. I am confident this 
threat will evolve and malicious use of drones will be more 
sophisticated.
    Current statutory authorities do not address threats posed 
by careless, reckless, or malicious use of drones. DHS needs 
counter unmanned aircraft system (C-UAS) authorities to detect, 
track, and mitigate threats from small unmanned aircraft. 
Without this authority, DHS is unable to develop and deploy 
countermeasures to mitigate nefarious use of this technology. 
The enactment of this bill will be a first step to secure our 
borders, protect critical infrastructure and large crowds at 
special events, and provide direct support to our State and 
local partners.
    This bipartisan legislation you cosponsored represents a 
critical step in enabling the Department of Homeland Security 
to address this vulnerability. It is similar to the existing 
statutory authorities granted to the Department of Defense in 
the 2017 and 2018 National Defense Authorization Acts, and it 
contains robust measures to protect privacy and civil 
liberties.
    The threat is real and dynamic. Malicious cyber actors, 
transnational criminal organizations, terrorists, and foreign 
intelligence services have used it and will use it for 
nefarious purposes. I support your introduction of this bill 
which acknowledges the need for flexibility to address this 
threat and perform our mission.
    Chairman Johnson, Ranking Member McCaskill, and 
distinguished Senators of the Committee, thank you again for 
your attention to this important issue. I look forward to the 
partnership as we address the threat and continue our work to 
protect the homeland. My colleagues and I look forward to 
answering your questions.
    Chairman Johnson. Thank you, Mr. Glawe.
    Our next witness is Hayley Chang. Ms. Chang is the Deputy 
General Counsel for DHS. She has previously served in the 
Department of Justice as an Assistant U.S. Attorney. She also 
served as Counsel to the Deputy Attorney General (AG) and 
advised DOJ leadership on the Committee on Foreign Investment 
in the United States. Ms. Chang is a graduate of Cornell Law 
School and holds a Bachelor's degree from Hillsdale College.
    Do you have a statement or are you just here to answer 
questions?
    Ms. Chang. Yes, Mr. Chairman.
    Chairman Johnson. OK. You are here to answer questions?
    Ms. Chang. I have a statement.
    Chairman Johnson. OK, great. Go ahead.

  TESTIMONY OF HAYLEY CHANG,\1\ DEPUTY GENERAL COUNSEL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Chang. Thank you. Good morning, Chairman Johnson, 
Ranking Member McCaskill, Members of the Committee. Thank you 
for asking DHS here today to talk about the emerging drone 
threat. Thank you for your bill, the Preventing Emerging 
Threats Act of 2018, which gives our officers the tools they 
need to evolve with the threat and keep our families and 
communities safe.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. Chang and Mr. Glawe appears 
in the Appendix on page 44.
---------------------------------------------------------------------------
    I would like to especially thank you for a critical piece 
of that bill, the opening line, ``Notwithstanding any provision 
of Title 18 United States Code.'' That is the heart of the 
issue. Without direction that is that clear, our front-line 
officers will find their hands continually tied as they try to 
keep us safe.
    Because technology is evolving faster than the law, things 
that were not illegal yesterday are suddenly deemed illegal 
today. Things that are not illegal today could be deemed 
illegal tomorrow. While some have suggested smaller, short-term 
fixes, tweaks and new exceptions to individual subsections of 
the code, that would not give our front-line officers the 
clarity that they need. It is too much to place that burden on 
our front-line officers to risk uncertainty and confusion when 
they need to move forward to address this threat. And, worse, 
without a law that is this clear, we put our officers at risk 
for criminal penalties just for doing their jobs. That is why 
we thank you for taking the straightforward approach. Just like 
Congress provided last fall for our partners at the Department 
of Defense and the Department of Energy (DOE), this clear 
guidance communicates to our front-line officers that they are 
valued and empowered to do their jobs.
    We look forward to answering the Committee's questions 
today. Thank you.
    Chairman Johnson. Thank you, Ms. Chang.
    Our next witness is Scott Brunner. Mr. Brunner is the 
Deputy Assistant Director of the Critical Incident Response 
Group (CIRG) for the Federal Bureau of Investigation. Prior to 
his current role, Mr. Brunner served as the Assistant Special 
Agent in Charge of the National Security Intelligence Program 
of the Louisville FBI Division. Mr. Brunner joined the FBI in 
1995 as a Special Agent in the Portland Division and has been 
in law enforcement since 1992, when he became a patrol officer 
for the Oklahoma City Police Department. Mr. Brunner.

   TESTIMONY OF SCOTT BRUNNER,\2\ DEPUTY ASSISTANT DIRECTOR, 
      CRITICAL INCIDENT RESPONSE GROUP, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Brunner. Good morning, Chairman Johnson, Ranking Member 
McCaskill, and members of the Committee. Thank you for the 
opportunity to discuss the FBI's concerns regarding the threat 
posed by unmanned aircraft systems. On behalf of the men and 
women of the FBI, let me begin by thanking you for your ongoing 
support of the Bureau.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Brunner appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    Today's FBI is a global, threat-focused, intelligence-
driven organization. Each FBI employee understands that to 
defeat the threats facing our Nation, we must constantly strive 
to be more efficient, effective, and looking over the horizon. 
Just as our adversaries continue to evolve, so must the FBI. We 
live in a time of acute and persistent terrorist and criminal 
threats to our national security, our economy, and our 
communities. These diverse threats underscore the complexity 
and breadth of the FBI's mission.
    We remain focused on protecting the United States against 
terrorism, foreign intelligence, and cyber threats; upholding 
and enforcing the criminal laws of the United States; 
protecting privacy, protecting civil rights and civil 
liberties; and providing leadership and criminal justice 
services to our Federal, State, municipal, and interagency 
partners.
    One significant threat to the safety of the American people 
concerns low-cost UAS. Today's UAS have evolved considerably 
from the early remote control aircraft of the 20th Century. UAS 
now have longer flight durations, larger payloads, and 
sophisticated maneuverability. They are easy to acquire, 
relatively easy to operate, and quite difficult to disrupt and 
monitor. Rapid development of UAS technology offers substantial 
benefits such as creating new and innovative ways to deliver 
goods and services and providing a safe means of inspection of 
critical infrastructure.
    But this technology also raises new risks. If operated 
negligently, recklessly, or maliciously, UAS can cause 
injuries, damage, and death. The FBI is concerned that 
criminals and terrorists will exploit UAS in ways that pose a 
serious threat to the safety of the American people. Sadly, 
these threats are not merely hypothetical. For more than 2 
years, the Islamic State of Iraq and ash-Sham and other 
terrorist groups overseas have perfected the use of cheap, 
commercially available drones for attacks and reconnaissance. 
As Director Christopher Wray testified last year, the FBI is 
concerned that these deadly tactics will soon reach our 
homeland in the form of domestic attacks, domestic terrorist 
attacks, illegal surveillance over critical infrastructure, or 
as a vehicle for either chemical, biological, radiological 
(CBR) attack or traditional kinetic attacks on large open-air 
venues such as concerts, ceremonies, and sporting events, or 
attacks against government facilities, installations, and 
personnel. That threat could manifest itself imminently.
    In addition to national security threats, UAS pose criminal 
threats. Drug traffickers have used UAS to smuggle narcotics 
across the U.S. Southern Border, and criminals have used UAS to 
deliver contraband inside Federal and State prisons. Similar to 
national security threat actors, criminal actors have utilized 
UAS for both surveillance and countersurveillance in order to 
evade or impede law enforcement.
    UAS technology renders traditional, two-dimensional 
security measures, such as perimeter fences and security gates, 
ineffective, enabling criminals, spies, and terrorists to gain 
unprecedented, inexpensive, and often unobtrusive degrees of 
access to previously secure facilities. Finally, the mere 
presence of UAS operations in the vicinity of an emergency 
scene, even negligently, could impede emergency service 
operations, especially aviation-based responses.
    At present, the FBI and our Federal partners have very 
limited authority to counter this new threat. Potential 
conflicts in Federal criminal law limit the use of technologies 
that would enable the FBI to detect or, if necessary, to 
mitigate UAS that threaten critical facilities and assets. 
Absent legislative action, the FBI is unable to effectively 
protect the United States from this growing threat. As you 
know, the Administration recently proposed counter-UAS 
legislation designed to fill this gap. The legislation would 
authorize the Department of Justice and the Department of 
Homeland Security to conduct counter-UAS activities 
notwithstanding potentially problematic provisions in the 
Federal code. The legislation would extend these authorities 
within a framework which provides appropriate oversight, 
protects privacy and civil liberties, and maintains aviation 
safety.
    Chairman Johnson, Ranking Member McCaskill, and Members of 
the Committee, thank you again for this opportunity to discuss 
the FBI's concerns regarding the threats posed by UAS. We are 
grateful for the support you have provided to the FBI, and your 
support makes a difference every day in the lives of Americans 
that we strive to protect. We welcome the introduction of the 
Preventing Emerging Threats Act of 2018. This legislation would 
provide the authorities requested in the Administration's 
proposal, which we believe are necessary to mitigate the 
national security and criminal threats posed by UAS.
    I look forward to discussing this important legislation 
with the Committee today.
    Chairman Johnson. Thank you, Mr. Brunner.
    Apparently we do have the video ready, but we are not going 
to run it now. I want you to get it ready, so as soon as Ms. 
Stubblefield is done with her testimony, we can hit play.
    Our next witness is Angela Stubblefield who has served as 
the Deputy Associate Administrator for Security and Hazardous 
Materials Safety for the Federal Aviation Administration since 
2013. She previously served as the Director of National 
Security Programs and Incident Response for FAA. Prior to 
joining FAA, Ms. Stubblefield served both as active-duty and in 
civilian positions for the United States Marine Corps. She 
graduated from George Mason University with a Master's in 
transportation policy, operations, and logistics and a 
Bachelor's degree from the University of Virginia. Ms. 
Stubblefield.

   TESTIMONY OF ANGELA H. STUBBLEFIELD,\1\ DEPUTY ASSOCIATE 
  ADMINISTRATOR FOR SECURITY AND HAZARDOUS MATERIALS SAFETY, 
      FEDERAL AVIATION ADMINISTRATION, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Stubblefield. Thank you, Mr. Chairman, and good 
morning, sir. Good morning, Ranking Member McCaskill and 
Members of the Committee. Thank you for inviting the FAA to 
speak today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Stubblefield appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    The FAA's primary mission is to provide the safest, most 
efficient airspace system in the world. We ensure aircraft move 
safely through the Nation's skies 24 hours a day, 365 days a 
year, over nearly 30 million square miles of airspace.
    UAS technology represents the fastest-growing sector in 
aviation today. In fact, the FAA recently surpassed 1 million 
UAS registrations. And while UAS technology offers tremendous 
benefits to the economy and society, we recognize the misuse of 
this technology poses unique security challenges. I would like 
to discuss the FAA's work with our security partners to address 
these threats, our focus on ensuring safety and maintaining 
airspace efficiency, while supporting national security and law 
enforcement missions, and taking the next steps in building a 
robust security framework that supports the full integration of 
this technology in our aviation system.
    Collaborating with our national defense, homeland security, 
and law enforcement partners is not new to the FAA. Close 
coordination with our partners to address the UAS security 
challenge is a natural extension of these time-tested and well-
exercised relationships. We have been working together 
successfully to address manned aircraft risks for decades. We 
continue to work together to improve the government's ability 
to respond to threats posed by both manned and unmanned 
aircraft operations, but more must be done if we are to realize 
the full benefits of safe and secure UAS integration.
    Congress granted the Departments of Defense and Energy 
counter-UAS authorities in December 2016. Recently the 
Administration released a legislative proposal to give the 
Departments of Homeland Security and Justice similar 
authorities to protect against UAS threats to certain 
facilities, assets, and operations critical to national 
security. We support this phased approach, as well as the 
inclusion of provisions in this Committee's proposal for robust 
coordination and risk-based assessment which will ensure 
aviation safety is not compromised.
    The FAA's role in counter-UAS is to support our partners' 
testing and eventual use of these systems while maintaining the 
safety and overall efficiency of the NAS. The FAA is 
responsible for balancing the requirements of our security 
partners' protective missions with the need for operator 
notification, airspace access, and airspace safety mitigations.
    The FAA is currently working with the Department of Defense 
and the Department of Energy to strike this balance as they 
deploy counter-UAS technology at sensitive facilities in the 
United States. We are full partners in their efforts to 
implement these systems and have received the same commitment 
from DHS and DOJ should they be granted counter-UAS authority.
    In addition to working closely with our Federal partners, 
FAA is progressing on a host of other actions that support both 
safe and secure UAS integration, including publishing an 
Advanced Notice of Proposed Rulemaking (ANPRM) to solicit 
information on UAS security concerns impacting integration, 
establishing remote identification requirements for UAS, 
restricting UAS operations over certain Federal facilities, and 
appropriately warning operators in proximity to these 
restricted sites.
    Being able to associate a drone in flight with the operator 
on the ground is crucial to enabling more complex operations 
and the ability of our law enforcement and national security 
partners to identify and respond to security risks. Anonymous 
operations in the national airspace system are inconsistent 
with safe and secure integration.
    But even as the FAA is working to establish remote ID 
requirements, challenges remain. In particular, the current 
exemption for model aircraft, Section 336 of the FAA's 2016 
reauthorization, makes it nearly impossible for the FAA to 
develop new regulatory approaches that facilitate safe and 
secure UAS integration. This exemption promotes the 
misperception by many recreational UAS operators that they are 
not required to follow basic safety rules. To address this 
challenge, a basic set of requirements, including registration, 
remote identification, and observance of airspace restrictions, 
must be applied to all UAS operators. This is essential to 
ensuring clueless and careless operators fly safely. However, 
mitigating criminal threats requires our security partners have 
the counter-UAS authorities and tools central to today's 
discussion.
    There is no question that a robust security framework is 
critical to advancing the Administration's goal of full UAS 
integration. By enabling Federal security and law enforcement 
agencies to detect and mitigate UAS threats, we will continue 
to lead the world in UAS integration while offering the safest, 
most efficient, and most secure airspace system in the world.
    We thank the Committee for its leadership on this issue and 
look forward to working together with you to balance safety and 
innovation with security.
    This concludes my statement. I am happy to answer any 
questions.
    Chairman Johnson. Thank you, Ms. Stubblefield.
    It looks like we have the video ready to go, so if we can 
just quick play that.
    [Video played.]
    Senator McCaskill. There it goes.
    Chairman Johnson. It does not need narration.
    So, again, that is an ISIS drone. They posted this on 
YouTube. They let loose a grenade very accurately over the 
target. So this is not a theoretical threat. This is a threat, 
and we all know ISIS has their Inspire magazine and other ways 
of communicating how to do these things.
    As is kind of my tradition, I am going to turn the 
questioning over to other Members to respect their time, but I 
do want to quickly read a couple of sentences out of a letter I 
just received today, June 6th, from the American Civil 
Liberties Union (ACLU)\1\ who opposes this piece of 
legislation. And I want the witnesses to keep that in mind and 
address it, talk about your viewpoint versus the ACLU's 
viewpoint.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Johnson appears in the 
Appendix on page 77.
---------------------------------------------------------------------------
    To quote: ``The National Defense Authorization Act for 
Fiscal Year (FY) 2018 authorized the Department of Defense to 
take action in cases where drones pose a threat to certain 
assets and facilities. Given this, there are practical 
questions regarding whether additional DHS or DOJ authority is 
needed to protect against the safety threats that could be 
posed by drones.''
    Again, I really want you to concentrate, because I was 
shocked by the fact that we do not have authority to counter 
this. So if you can just kind of keep that in mind as we go 
through questions by the Committee, and with that, I will turn 
it over to Senator McCaskill.
    Senator McCaskill. I will defer and allow other Members to 
question first also.
    Chairman Johnson. Then it would be Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you both for deferring to give us 
time for questions. Thank you for your testimony.
    Let me ask a couple of questions. For the FAA, current 
restrictions right now on registration, a UAS has to be 50 
pounds. Is that correct?
    Ms. Stubblefield. It is greater than 0.55 pounds and less--
well, first, sir, all aircraft have to be registered.
    Senator Lankford. Right.
    Ms. Stubblefield. As it pertains to small UAS, if they are 
greater than 0.55 pounds and less than 55 pounds, they can be 
registered through the Web-based application. If they are 
greater than--55 pounds or over, they have to participate in 
our normal registration process that we use for manned 
aircraft.
    Senator Lankford. So when was that weight--the 55 pounds 
max there, so there is a pretty big spectrum that has happened 
in the development of the UAS over the past several years where 
weight is coming down significantly. A 55-pound UAS is fairly 
rare in the commercial field at this point. So is there a 
reevaluation that is needed on that as far as the weight base?
    Ms. Stubblefield. Thank you for that question, Senator. The 
FAA's primary mission and focus being on safety, we evaluate 
the weight and capabilities based on the potential safety risk 
that they could pose. So as we look at expanding operations, 
that is part of the discussion in terms of what are the 
requirements to ensure safety. With the more weight that the 
UAS has, the greater requirements for safety mitigations to 
ensure that it does not pose a safety risk when flying.
    Senator Lankford. But that is currently under reevaluation 
or do you think that is not under reevaluation, that 55 is 
considered the right weight and size?
    Ms. Stubblefield. Senator, the 55-pound distinction is 
largely around what we consider to be a small UAS, and for the 
requirements around the Part 107 rule and the requirements that 
are required for that versus if they are larger than 55 pounds, 
then there are other certification and operator requirements 
that are provided. As we move to more complex operations, the 
requirements are going to be associated with the potential 
safety risk that particular aircraft pose.
    Senator Lankford. So is there a size limitation as well, 
again, with composites and other things coming online now, that 
they can have very significant size and still be under 55 
pounds?
    Ms. Stubblefield. No, sir, and the 55 pounds also includes 
anything that is attached to or being carried by the UAS as 
well.
    Senator Lankford. All right. Let me ask of DHS on this, the 
difficult question that civil libertarians are going to talk 
about is who makes the decision, especially when you are 
talking about an unmanned aerial system being seized at an 
event, at a location. So the authorities that we are discussing 
at this point, who would make the decision on when those 
authorities go into place, what event, what location you would 
not be allowed to use a UAS and what time, and then who would 
grant the seizure authority of that, because that is a key 
constitutional issue.
    Mr. Glawe. Senator, thank you for the question. And you are 
actually right, it is a key constitutional question on a Fourth 
Amendment seizure, how that would work. The legislation allows 
us to create the policies and procedures and tactics and help 
develop the technical capability on how to deploy that. To my 
colleague from the FBI and the national security events and how 
DHS works that partnered with them, it is clear on that mission 
in the lines of how we work that and provide that security. 
This enabling of this new legislation, which is critical to the 
safety of the homeland, will allow us to start developing those 
programs and policies and technology on how to deploy it. But 
the command and control is critical on that once a threat is 
identified and a reaction is imminent.
    I will let my Deputy General Counsel articulate the legal 
aspect of that as well.
    Senator Lankford. All right.
    Ms. Chang. Yes, thank you. The decision as to where these 
technologies will be deployed is going to be made at the 
highest level. The Secretary and/or the Attorney General will 
make the initial designation in consultation with the FAA under 
the bill, and that will be done through a risk-based 
assessment. So it will be a careful process where we see the 
highest risk based on one of the--it will need to be connected 
to one of the missions enumerated in the statute, and then the 
actions will need to be taken under the bill necessary to 
mitigate the threat. So it is a fairly limited scope.
    And in terms of who will be making those decisions, the 
personnel have to be with assigned duties of safety or security 
or protection, so this will not be a broad sweeping 
investigative tool. They will be protective.
    Senator Lankford. Just walk me through this. You are trying 
to make a decision on what is happening in Oklahoma, so there 
is a Bedlam football game, and half the State is either 
watching or at the game. Is that a national event or is that a 
State responsibility to be able to monitor what is happening 
around that event? Is it different if it is the Super Bowl 
versus that if it a college football game in a State? When you 
start talking about authorities and how you are going to be 
able to monitor this and how you are going to track what 
events, what locations, that decision has to be made, and we 
have to provide some clarity to that.
    Ms. Chang. Yes, sir, and currently we have a process in 
place for handling security at those events, and this would 
build upon that by adding the C-UAS authority. But, 
essentially, the homeland security advisers of the States, if 
it is a State event, will reach out and State and locals or 
private sector will reach out through their homeland security 
advisers. The process is in place. The lead is the Secret 
Service, but the FBI is involved as well, and there is a 
process for giving each event--if it is not the Super Bowl, 
they will each have Special Event Assessment Rating (SEAR) 
rating events, and based on the threat we will deploy resources 
as necessary.
    Senator Lankford. Right. Well, Scott can tell you the 
Bedlam football game is bigger than the Super Bowl game anytime 
on a college game. But when we talk about this local FBI 
engagement, this becomes a key issue on the civil liberties 
issue. I do not think any of us deny there is a real threat 
here. The unmanned aerial system to me is kind of like the 
Internet. It can be used for good or bad. We want to focus on 
the good aspects of it and be able to broaden the capabilities. 
But we also want to be aware it can be used for bad and how we 
are trying to address this. The key issue that we have to 
address is: What is a national focus? What is a State response 
and a local focused on that?
    Scott, how will the FBI be able to handle that as far as 
that partnership and that relationship together?
    Mr. Brunner. Yes, sir. Thank you, Senator, for the 
question. So from a Federal perspective, we get together and 
break all these events down into either National Special 
Security Events (NSSEs), like the political conventions, like 
the State of the Union address. Those are overseen by the 
Federal entities. The majority of the other events we break 
down into--they are called ``SEARs.'' That is everything from 
something like the Bedlam football game to the Kentucky Derby 
to other things that are of national importance but primarily 
rest with the State and local authorities for responsibility. 
This law would give us a unique ability to go in at the request 
of the Governor or the Attorney General and provide the 
resources that we have in the counter-UAS arena, working 
extremely closely with our State and local partners, who 
actually oversee the security of the event. So we would be in 
addition to them. It would enable us to go in with the 
technologies that we have provided by the authorities in this 
bill and support them in protecting those types of events.
    Senator Lankford. All right. Thank you.
    Chairman Johnson. I think this would be a good point to 
really clarify what authorities currently exist and what 
authorities this bill actually grants. So do you have a list of 
what those would be? Because, again, this is incredibly limited 
authority. Currently the Department of Defense has incredibly 
limited authority over their facilities. Again, whoever can 
actually lay out here is the authority the Defense Department 
has, this is the very limited authority prioritized that this 
bill would grant. This does not give DHS the authority to knock 
down drones flying around in your backyard. So who could do 
that? Is that you, Ms. Chang?
    Ms. Chang. Yes, sir, I can answer that. So right now, to 
address in particular the ACLU's point about this not being 
needed because DOD already has the authority, DOD, as you point 
out, has very limited authority to protect certain critical 
assets of theirs. It does not cover assets of the Department of 
Homeland Security or the Department of Justice or these mass 
gathering events. And so that is what--the Committee's bill 
would add DHS and DOJ. It would allow us to cover what are 
designated as covered facilities or assets by the Secretary or 
the Attorney General through risk-based assessment, and those 
could include, based on risk, these special events. But they 
have to be tied to core missions for us. That is primarily the 
Secret Service protecting the President and protectees. The 
Coast Guard, CBP, DHS is primarily the Marshals and FBI. It 
also limits how we can do it. It has to be necessary to 
mitigate the threat, which is a pretty high bar. Generally our 
use-of-force rules, and DOD is under these as well, operating 
domestically, are reasonableness. And this would be a higher 
bar with necessary to mitigate the threat.
    And so once that threat is over, our authority ends. We 
have the authority to disrupt that threat, get that drone down. 
And then we have also robust protections, both front end and 
back end, in the statute to limit to protect retention of that 
data and also oversight of Congress as well as the Executive 
Branch.
    Chairman Johnson. And, by the way, State and local 
authorities have no authority to do this, correct?
    Ms. Chang. That is correct, sir.
    Chairman Johnson. One of the concerns, I know, as we were 
drafting the bill, was DHS did not want to assume protective 
authority over everybody. You simply do not have the resources, 
so, again, I cannot emphasize enough this is incredibly limited 
authority. This is just a first step, table stakes authority, 
with an awful lot of studying, a lot of cooperation with FAA in 
terms of the complexity of the situation. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
McCaskill, for holding this hearing, and thank you all for 
being here.
    Ms. Chang, I want to follow up a little bit on the 
discussion we were just having because I would like to better 
understand the Department's expectations for how this authority 
is actually going to be implemented. As I understand it, the 
bill broadly allows DHS or Justice Department personnel under 
the circumstances you have described to shoot down a drone if 
the drone threatens the airspace of a covered facility, and we 
have a whole bunch of criteria about what makes a covered 
facility.
    However, State and local law enforcement will more likely 
be the first responders to a potential drone threat. In the 
event that the drone presents an imminent threat, the State and 
local law enforcement personnel may not have time to wait 
around for either DHS or the FBI to arrive on the scene to down 
the drone. Consequently it is possible under the current draft 
of the legislation for DHS--I guess the question is: Is it 
possible for DHS or the Justice Department to confer 
temporarily their authority to a State or local law enforcement 
officer in order to neutralize an imminent threat?
    Ms. Chang. Thank you, ma'am. This authority is for the 
Federal Government, and it does provide us the ability to 
assist our State and local partners. Right now, as the Chairman 
has pointed out, we do not even have that. We are not able to 
do anything to counter the threat, but----
    Senator Hassan. I understand that. But what I am interested 
in, I am a former Governor. I know what these relationships are 
like, and I know people are stretched, especially at major 
events. So, what I would ask is: How are we going to 
practically do this if there is a threat? Suppose there is an 
imminent threat. The only people there are State and local law 
enforcement. What sort of validation, if we decided to have 
some way that the DOJ or DHS could confer their authority on 
State or local officials in the right circumstance, what kind 
of validation would the State and local law enforcement 
officers be required to provide to DHS or the FBI in order to 
confer the authority? And should this be something that we 
think about as a role for fusion centers in connecting DHS 
personnel with the first responders who have to make really 
fast decisions in the face of threats like this?
    Mr. Glawe. Senator, thank you for that question. So the 
fusion centers and the statutory requirement to share 
intelligence, imminent intelligence and all intelligence, 
resolves under me as the Under Secretary for Intelligence for 
DHS.
    Senator Hassan. Yes.
    Mr. Glawe. The requirement that we are going to need to get 
that information, tactical level, to the first responders and 
local law enforcement is going to be critical. This bill is a 
necessary first step to build the process and policies and 
technology to develop that 
capability with State and locals. As a former Houston police 
officer--I started when I was 22--I absolutely understand that 
local law enforcement is going to be the first line of defense. 
I run a road race every year in Iowa--I am going to use an 
example--and myself and my husband, who is an FBI agent, we 
were there last year. There were 25,000 people in between two 
buildings in Davenport, Iowa. A wonderful race. And I looked 
up, and I said, ``There are six drones flying above us.'' And 
we said, ``I hope they are friendlies,'' because we were 
sitting ducks.
    That was a SEAR 4 event. It got a SEAR rating from my 
fusion center in Iowa, in partnership with the FBI, but it did 
not raise to the level to have Federal support. That is where 
we have to have the tactical level intelligence and the 
countermeasures in place.
    What I would say to the Committee as the head of 
Intelligence for the Department, the sophisticated capability 
by the terrorist networks and their encrypted communication 
makes it very difficult to identify those imminent threats. We 
have to have the capabilities deployed at these events and 
ready to go if we feel that an adversarial drone is 
approaching. Thank you, Senator.
    Senator Hassan. Well, thank you, and I would look forward 
to following up with you on this particular issue.
    Under Secretary Glawe, I wanted to move on to another 
issue. In addition to serving as the Under Secretary for 
Intelligence and Analysis, do you also concurrently serve as 
the Counterterrorism Coordinator for the Department of Homeland 
Security?
    Mr. Glawe. Yes, Senator.
    Senator Hassan. As Counterterrorism Coordinator, are part 
of your responsibilities to oversee the Department's efforts to 
prevent, respond to, and mitigate terrorist threats to the 
homeland?
    Mr. Glawe. Yes, it is.
    Senator Hassan. The Counterterrorism Coordinator is such a 
critical position. Can you please outline for us what goals you 
have accomplished at the Counterterrorism Coordinator over the 
past year? What will be your goals for the Counterterrorism 
Coordinator over the next year? And what metrics will you use 
to measure your effectiveness?
    Mr. Glawe. Thank you for that question. And since my 
confirmation in August of last year--I have worked as a Special 
Agent with the FBI, at the Director of National Intelligence 
(DNI), and as the head of Customs and Border Protection. I was 
uniquely postured to identify the challenges we have had at the 
Department. so we have restructured into a counterterrorism 
mission center approach, bringing all assets--I am head of 
intelligence for all assets within the Department, Customs and 
Border Protection, Coast Guard, Immigration and Customs 
Enforcement (ICE), the Protection Division, as well as mine. 
Aligning that so we have a common collection posture, so we see 
the storyboard of the threats as they evolve, as well as 
increasing my field resources--we had pulled back, and we did 
not deploy enough resources in the fusion centers, and creating 
a new structure so we get tactical level terrorism information 
to the common users, especially at the ports of entry (POEs) 
and the borders.
    Senator Hassan. So I appreciate that. What I will follow up 
with you on the record about is that is a lot of activity to 
get yourselves ready to accomplish certain goals, and I am 
interested in what goals were set, what has been accomplished, 
so what the outcomes are, and what metrics you are using. I 
have one more question, so I am going to move on to that, but 
that is what I would like to follow up with you about.
    Mr. Glawe. Senator, we will take that back for the record. 
I would look forward to come back and have a further dialogue 
regarding our restructuring and how we have put pursuit teams 
and metrics associated with that.
    Senator Hassan. All right. Thank you.
    Another question for you, Under Secretary. Clearly. from 
our classified briefing yesterday and today's discussion, we 
know that drones can be used by terrorists to carry out 
attacks. With that said, it is really important to make sure 
that we are not confusing the symptoms with the disease. A 
terrorist with a drone in the United States is clearly a 
threat. But so are terrorists armed with a car, a bomb, a gun, 
a pressure cooker, or box cutters. Indeed, any motivated 
terrorist with a weapon on U.S. soil constitutes a threat to 
the homeland.
    While we must counter the tactics terrorists use to carry 
out attacks against Americans, it is perhaps even more 
important to try to stop terrorists from entering the United 
States and to keep Americans from falling prey to the twisted 
propaganda that radicalizes them into homegrown terrorists.
    On the first point, at one time ISIS had as many as 5,000 
recruits from Western countries, including many visa waiver 
countries. What is your assessment of the number of foreign 
fighters ISIS was able to recruit from Western countries? And 
as part of your response, did all of these recruits die on the 
battlefield? If not, what is DHS' strategy for countering ISIS 
foreign fighters that may seek to travel back to the United 
States?
    Mr. Glawe. Senator, thank you for that question, and it is 
a very diverse and fluid threat right now as the disbursement 
of the fighters are now leaving Iraq and Syria and going 
global. We have seen an amount of European foreign fighters and 
U.S. foreign fighters that are still in Iraq and Syria. There 
has been disbursement into North Africa, into Southeast Asia, 
as well as Europe, as I mentioned.
    We have a new U.N. Resolution, 2396, that requires the 
sharing of Passenger name record (PNR) data to the United 
States and to European countries and others that signed on. We 
are developing programs through enhanced screening and vetting 
in the National Vetting Center to identify those threats and to 
work with our foreign partners to get that travel data, 
especially foreign to foreign travel. But developing the 
systems and the infrastructure to identify that threat globally 
to prevent that coming into the United States is a priority for 
the Secretary and for myself, as well as the intelligence 
community (IC), as well as also the cargo and container 
security. As we know with the Australia bomb plot, a 
significant danger, and we have seen that consistently, the 
threats to aviation continue to morph and expand exponentially, 
and they are sophisticated. We are developing the programs and 
infrastructure globally with foreign partners to collect that 
data and to mitigate the threats.
    Senator Hassan. Well, thank you. And I know we have gone 
quite a bit over, so I thank the Chair for his indulgence. I 
also will be following up on the homegrown piece of this and 
what we are doing at a community level to make sure that we are 
countering homegrown terrorism.
    Thank you.
    Mr. Glawe. Thank you, Senator.
    Chairman Johnson. Senator Hassan, first of all, I 
appreciate your questions, particularly when you started 
talking about local enforcement of this. Again, for purposes of 
this hearing, I really need to clarify how little authority 
government at all levels has on this. So the fact of the matter 
is when I saw the first draft of this bill, I thought, Is this 
all? Is this really all we are doing? And I pushed my staff and 
I pushed the Federal partners here to let us make this as 
expansive as at least the discussion.
    Now, in the end we pretty well pared it back to just the 
initial first step because, again, we are going to have 
pushback on this. But I think the answer to your question is 
local authorities would have no authority. Unless DHS or a 
Federal authority could get there, there is no authority to 
knock these things down.
    Senator Hassan. And, Mr. Chair, I understand that and I 
appreciate very much why we are looking at this. What I want 
people to remember is that just because we give a Federal 
agency authority does not mean that operationally that is going 
to result in the kind of action we need to actually take 
something down. And, I also know from my local and State folks 
how concerned they are that they may be presented with an 
imminent threat that they will take action on because they are 
public safety officers and they are going to protect the people 
they are sworn to serve. But then what follows is a level of 
liability for them which is very concerning.
    Chairman Johnson. Under Title 18.
    Senator Hassan. Yes.
    Chairman Johnson. Precisely. So, again, I cannot overstate 
the fact that this is such an important first step, but it is 
just a minimal first step. It is just minimal. I mean, this is 
not going to solve the problem. This puts us on the path to 
begin to address the problem. So, again, I appreciate your 
questions. It helped clarify that.
    Ms. Stubblefield, I want to go back to registrations versus 
the number of drones that have actually been purchased. It is 
all well and good that FAA requires registration, but it does 
not require registration at the point of purchase. And so any 
kind of bad actor can purchase a drone and decide not to 
register it, correct?
    Ms. Stubblefield. That is correct, sir. The regulatory 
structure and the registration process is made for the 
compliant, those who want to follow the rules. Certainly we 
have looked at the point of sale option when we were setting up 
the registration process initially, and I would like to take 
you back to that timeframe when we were doing this because I 
think it helps inform the option and the direction that we took 
at that time, which was in the middle of 2015; we were facing a 
projection of significantly high percentage of UAS being under 
the Christmas trees of folks in the United States, and we were 
very concerned that we would have a lot of people operating in 
the airspace who had no understanding of how to do that safely.
    So we pulled together an aviation rulemaking committee that 
was comprised of industry folks, as well as government 
stakeholders, to look at what is the way that we can most 
expeditiously register this new group of UAS operators that 
will be coming into the airspace system. Point of sale was 
looked at in that context. The concern with that was when 
people purchase it, it does not necessarily mean they will be 
the person operating it, and a lot of these were being given as 
gifts so there was some concern about whether we would actually 
be capturing the right group of folks.
    There is also the concern about people who are ordering 
them from overseas or are buying them off retail market and how 
we would capture those folks. And then as we spoke to 
retailers, they were very concerned about the congestion of 
having to do that registration at point of sale. There was 
quite a bit of infrastructure that would need to be built and 
clearly articulated within the rule, all of which added up to 
adding significant time to being able to put registration in 
process.
    Chairman Johnson. OK. I understand the complexity of it, 
and, again, particularly for those small toy drones, if you can 
consider any of them toys, in terms of threat potential. I 
understand that. But when you start getting into these 
agriculture use drones and we still do not require registration 
at the point of purchase, I heard Senator McCaskill say 4 
million drones. I heard you say we have registered a million of 
them. That is a gap of 3 million. That is a significant 
security risk from my standpoint.
    So we can have all the registration rules in place, but we 
know bad actors are not going to be following the rules. So I 
do not get a great deal of comfort in terms of registration 
rules. I will stop right there. Did you want to go before we--
--
    Senator McCaskill. Sure.
    Chairman Johnson. OK.
    Senator McCaskill. I would like to spend a little bit of 
time talking about counter-drone technology. I know that 
Science and Technology (S&T) has been focusing on developing 
and delivering some counter-drone capability for DHS. Keeping 
in mind that this is not a classified setting, discuss what you 
can about what its capabilities are, and whether the bill gives 
you the authority to use what is being developed within DHS for 
counter-drone operations?
    Mr. Glawe. Senator, thank you for the question. The 
counter-drug technology developments specifically on how we are 
identifying the different threat vectors. Transnational 
criminal organizations are incredibly sophisticated, operating 
much like foreign intelligence services by State-sponsored 
governments. They are incredibly capable. Specifically, Science 
and Technology and the two main organizations that do 
interdictions, Coast Guard and U.S. Customs and Border 
Protection, have been increasing their capabilities to 
specifically identify fentanyl. As you know, it is a tremendous 
threat, and it is causing devastating effects to all of the 
Senators' communities. It is devastating. With that regard, 
they have made advances on how to detect that within cargos and 
containers, and Kevin McAleenan, the Commissioner, has done a 
fantastic job in leading that effort.
    With regard to this legislation and the threat from UASs, 
specifically Southern and Northern Border, it gives us the 
opportunity in the Department of Homeland Security to develop 
tactical techniques and policies and procedures to identify 
those threats in a foreign country that are trying to come 
inbound in the United States. It gives us the first start to do 
that. But as you know, unmanned aerial systems can provide 3 to 
5 pounds of payload of pure fentanyl, which is worth thousands 
and thousands of dollars and can devastate States. It is 
deadly. This is going to allow us to develop the policies and 
technology to further that aggressively, because, in my 
opinion, these sophisticated networks are going to morph and 
have way outpaced our capabilities on the technology.
    Senator McCaskill. You may have misunderstood my question. 
I am obviously always interested in what we are doing to get 
after the drugs, but I am interested in what we are doing 
internally versus the commercial counter-UAS technologies. We 
are aware that some of these companies are touting some pretty 
amazing technological advances and claim to be able to address 
the drone threat. And so I have two parts to this question. I 
want to know what capabilities exist, within S&T through this 
Theater Air Control Training Information Computer (TACTIC) 
assessment that you all have done--and that is an acronym for 
something long; somebody had to write an acronym--versus the 
commercial technologies available. One of the big things that 
has occurred, I am very grateful for, in DOD over the last few 
years is them finally recognizing that sometimes off-the-shelf 
technology is a much better deal for taxpayers and, frankly, 
allows us to stay cutting-edge in a more flexible way than 
investing in a huge, big project to do counter-drone technology 
that is with request for proposal (RFPs) and changing 
requirements. So, first I want you to compare and contrast 
commercially available counter-drone technologies with what is 
going on within DHS in the Division of S&T. Second, whether or 
not any of these technologies are ready to be deployed and 
whether they can be deployed in urban settings.
    Mr. Glawe. So, Senator, I think regarding the surveillance 
vehicles, I am assuming you were talking about, as far as what 
would be flown by the Office of Air and Marine and how they 
patrol specifically the border environment to look for 
nefarious activity, that has been an evolving technology that 
they have looked to advance. Specifically on the commercial use 
and where they are looking at the testing and procurement, I 
would have to get back with an answer for the record on the 
specifics. I want to make sure I am accurate when we answer 
your question because this is a very costly endeavor and the 
technology advancements and the cost saving obviously have to 
be balanced with what----
    Senator McCaskill. Yes, and that is what I really want to 
drill down on here. I really need you to get back to me on why 
we are not buying it off the shelf. What is the reason? If 
these technologies have been developed and are commercially 
available, there needs to be a really good excuse why we are 
not availing ourselves of that technology as opposed to trying 
to duplicate it in a way that history has told over and over 
and over again costs three times as much. It does not happen as 
quickly, there are too many cooks in the kitchen, and we are 
just not as nimble and flexible as we need to be. And in this 
particular area, with technologies evolving as quickly as they 
are, I just want to make sure that we are not missing the 
opportunity to avail ourselves to the commercial technologies 
that are available.
    Mr. Glawe. Senator, we will take that back for an answer.
    Senator McCaskill. Great.
    And I really want to know also, when you come back with 
that, how these technologies can be deployed in urban 
environments. There is one situation where you can go into a 
relatively rural area and do the kind of identification, 
interdiction, and use counter-drone technologies very 
effectively. Sometimes in an urban setting, it is a whole 
different set of challenges, both from the flyable space to the 
interference that there is in terms of the ability to locate 
them, and obviously the techniques for bringing down are 
challenged by an urban environment. So I think it is really 
important that this Committee get a handle on what advancements 
are being made--and all of you, feel free to weigh in on this, 
what advancements are being made that would allow us to use 
these technologies more effectively where it is likely this is 
going to occur; that is, where bad actors could hope to inflict 
mass casualty.
    Mr. Glawe. Senator, using UASs for law enforcement purposes 
to conduct surveillance on criminal suspects, terrorists, 
foreign intelligence agents is going to be an absolute benefit 
and how we develop those policies and procedures, I would 
actually turn it over to the FBI, the Deputy Assistant 
Director, maybe to touch on that from their use.
    Mr. Brunner. Yes, Senator, I can speak from experience. I 
have been in a number of meetings with the Department of 
Defense, a number of conferences, and with our partners in the 
industry. There are a significant number of counter-products 
out there on the market today. The problem we face right now is 
that we cannot legally use any of those domestically. That is 
where this legislation comes into play. So the Department of 
Defense is using some very significant tools overseas. Our 
partners here within the counter-market are developing some 
significant technologies that are potentially very useful to us 
to protect the American public and to respect privacy and civil 
liberties. But, again, we cannot use any of those right now.
    Senator McCaskill. And our legislation would allow that?
    Mr. Brunner. Yes, ma'am. It would go a long way in helping 
us.
    Senator McCaskill. Well, then I want to get a head start on 
looking at commercially available, off-the-shelf technologies 
so that we are not back here 5 years from now talking about the 
400 million, the 500 million, the billion that was wasted in an 
acquisition strategy that was never going to be nimble enough 
to address the threat.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And thank you so 
much for expediting this hearing. I think it is critical, as we 
talked yesterday, that we have this conversation.
    First off, I would just like to acknowledge that North 
Dakota is very proud of the role that we play in developing 
technology, and continuing, Senator Hoeven and I brag about 
this all the time, and you can see our names are prominently 
featured on this bill because we want this technology to be 
safe. And so we have great opportunities to expand and to 
develop what we need for border security, for homeland 
security, right in North Dakota and right here. And so I just 
want to submit for the record a statement by Nicholas Flom, who 
is the executive director of the Northern Plains Unmanned 
Aircraft Test Site System.\1\ Nick is a great leader on UAS, 
both in North Dakota and the Nation, and he and the North 
Dakota Test Site I think bring an important perspective on 
counter-UAS and how to best pursue this initiative. And so----
---------------------------------------------------------------------------
    \1\ The statement referenced by Senator Heitkamp appears in the 
Appendix on page 75.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Heitkamp. Thank you, Mr. Chairman.
    First off, it is always dangerous when you are reaching 
back in the file banks of your memory, but there were companies 
that developed these techniques overseas for the Department of 
Defense that came back, and there is a great example in 
Baltimore where a local agency deployed the same techniques and 
the same equipment that was used internationally. I do not 
know. Are you familiar with the Baltimore experience, any of 
you?
    [No response.]
    Well, that is a problem, right? Because this is something I 
know from listening to a podcast, but you guys should know it. 
And they ran into a number of privacy problems, but I think it 
was like a Radiolab podcast or maybe a Planet Money podcast, 
but they talked about tracking the criminal element in the city 
of Baltimore and using this technique and were able to 
basically deploy resources almost immediately to conflict 
points that were very helpful. And it goes to what Claire is 
talking about, which is, how do we do this, even beyond 
terrorism threats, even beyond mass casualty threats, these 
techniques can be very helpful for pursuing safety within 
communities themselves. And so I would recommend you guys all 
get a hold of Baltimore--if it is not Baltimore--I remember it 
is Baltimore, but get a hold of the other entities.
    Mr. Brunner. Yes, Senator, we are aware of that. That is a 
persistent surveillance component. It is slightly different 
from the counter component that I was----
    Senator Heitkamp. Right, but there is no reason why a 
persistent could not actually catch a counter-terrorism threat 
as well, right?
    Mr. Brunner. I am not----
    Senator Heitkamp. Given the right intel.
    Mr. Brunner. Potentially, yes.
    Senator Heitkamp. So I think that there is a great example 
of a public safety utilization of this technology.
    I want to continue the dialogue that Claire engaged you all 
in, in terms of technology. I think that we feel sometimes that 
we are always behind the eight ball; we are always trying to 
catch up to what the bad guys are doing or catch up to what is 
happening and understand the technology. How can we accelerate 
the development of this technology, especially as it relates to 
surveillance kind of moving forward? And what are you doing to 
accelerate the development of this technology or evaluating 
products, as Claire has talked about, off the shelf that are 
already available? I would start with you, Mr. Glawe.
    Mr. Glawe. Senator, thank you for the question. I think 
this legislation allows us the first step to start developing 
the lanes and the roads of what our authorities will be and how 
we can deploy it within the homeland. That is going to be 
unique from a law enforcement and how we use it and how we use 
that policy and legal framework so when we have officers 
deployed at the border or at a national security event, that we 
have the parameters of what we can do and how we can deploy 
countermeasures. I will turn it over to the Deputy Assistant 
Director of the FBI, who is really the subject matter expert on 
this and leads that component down at CIRG, for a little more 
granularity on it.
    Senator Heitkamp. Mr. Brunner.
    Mr. Brunner. Yes, Senator, we are working extensively with 
our private industry partners to evaluate what the market has 
out there in technology, and we are actually preparing 
ourselves for when the national airspace opens up, and I could 
turn that over to Ms. Stubblefield in a moment about that. But 
we want to be in a position to make the best use of this 
technology as possible, so we are coordinating with our private 
entity partners both on the operational surveillance side of 
the house and on the counter-surveillance side of the house, 
counter-UAS side of the house, in order to position ourselves 
and to provide the industry with what we potentially believe we 
might need to both surveil and counter.
    Senator Heitkamp. One of the things that I would remind you 
is that this is the Homeland Security Committee but also 
Government Affairs, and we are charged with efficiencies, we 
are charged with making sure that we are doing everything that 
we can to make sure that we are not wasting taxpayer dollars, 
that we are not re-creating the wheel when the wheel has 
already been made available. And so I just want to reiterate 
Claire's point, which is, let us not think that the public fisc 
is open to every dollar that you think you may need. Let us try 
and economize on this. Mr. Brunner.
    Mr. Brunner. Yes, ma'am, there is a National Capital Region 
group that gets together on the Federal level--it is chaired 
primarily by DHS and DOD--that the Department of Justice is now 
a partner to looking at exactly that. We all believe in this 
technology. We all know that we are going to need certain 
components of this technology. Let us be smart about it. Let us 
do it together. Let us push all of our requirements out at one 
time so that we do not waste the taxpayers' money.
    Senator Heitkamp. Turning to Mr. Glawe, we are obviously 
very interested in providing border security on this Committee. 
I think that we now have gone through a Northern Border study, 
we have gone through a Southern Border study. How engaged and 
involved are these technologies in the evaluation of that? We 
talk about a wall, but we can do a virtual wall if we do this 
correctly. And so we are very interested in how these 
technologies will be deployed at the border and whether you 
believe that you are paying enough attention to the development 
of these technologies as we look at border security strategies.
    Mr. Glawe. Senator, thank you for the question. I had the 
good fortune, when I was the head of Intelligence at U.S. 
Customs and Border Protection, to actually help stand up the 
Northern Border Coordination Center in Detroit and actually 
brief you--I believe it was about 3 years ago.
    Senator Heitkamp. I know.
    Mr. Glawe. I am very familiar with the unique environment 
of collection on the border using unmanned aerial vehicles, and 
we have done a tremendous amount of testing on the Northern 
Border. You are very familiar with the challenges with the 
foliage compared to the Southern Border. We have partnered with 
the Department of Defense and intelligence looking at 
capabilities and what we can deploy in an unclassified and 
classified meeting to look at the coherent change of where 
those threats are. So if you are unlawfully entering and not 
going through a port of entry and declaring it, you are 
essentially illegally entering the United States.
    How are we deploying assets on that target to identify what 
that threat is? That is a layered approach with intelligence, 
not just air assets but intelligence also in the rear law 
enforcement and in U.S. intelligence community assets and how 
we collect that. We are creating new systems in how to do that. 
This legislation, which also involves a strong research and 
development (R&D) and reporting requirements to you, will allow 
us to show you that layered approach and how we are integrating 
in that intelligence from a classified and unclassified 
capability on the patrol aspect of it.
    Senator Heitkamp. And I think highlighting, Mr. Chairman, 
the importance of getting this legislation across the finish 
line so we can get started. Thank you so much.
    Chairman Johnson. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. About a Saturday ago, colleagues, I was at 
the University of Delaware in the football stadium for 
graduation, and Scott Brunner's name came to mind because if 
you do a Google search on Scott Brunner, you will find he is 
not just a top guy at the FBI. He was our starting quarterback 
for 3 years.
    Senator Hoeven. Did you graduate?
    Senator Carper. He went on to play for the Giants and for 
the Broncos.
    Senator Hoeven. Governor, did you graduate?
    Senator Carper. Several times. [Laughter.]
    Yes, indeed.
    Senator Heitkamp. Really?
    Mr. Brunner. No, ma'am. That is not me. It is a different--
-- [Laughter.]
    Senator Carper. But I thought about you when I was there 
and today. So nice to see you all.
    I am going to ask you to think about one question, and then 
I will ask another one while you think about the one I am going 
to ask in a minute. The one I am going to ask in a minute is: 
Each of you, give us a question we ought to be asking that we 
are not asking yet of you. All right? What should we be asking 
that so far we have not asked? OK? Think about that.
    Here is my question. Given the disparate roles and the 
responsibilities spread across a bunch of different agencies, I 
would just like to know what your thoughts are about the degree 
of coordination and cooperation that are necessary for 
successful counter-UAS operations. That would be my first 
question, so let us just start with that. Ms. Stubblefield, do 
you want to go first?
    Ms. Stubblefield. Thank you, Senator. Both your questions 
are excellent questions, but I will start with the second one 
first.
    The level of coordination is significant, and we certainly 
appreciate that this Committee's proposal highlights the need 
for robust coordination and a risk-based assessment. There are 
a lot of counter-UAS systems out there, 235 systems available 
from 155 vendors in 20 countries. There is a plethora of 
options on the market.
    Senator Carper. I am going to ask you to be succinct 
because we are----
    Ms. Stubblefield. Yes, sir.
    Senator Carper. Thank you.
    Ms. Stubblefield. However, they have not been tested in the 
civil environment. Most of them are built on military 
applications. Therefore, as we are implementing them in the 
civil environment, as we have been doing with the Department of 
Defense and Department of Energy, it is critical that we have 
coordinated processes for notification and reporting for the 
airspace flight restrictions and mechanisms necessary to ensure 
we are using this in locations where compliant operators are 
not operating, to include the spectrum analysis for the impacts 
that they have on avionics and air navigation systems that are 
critical to safety of flight. So that coordination, which we 
have been in lockstep with DOD and DOE, is paramount in the 
planning up to deployment, through deployment so that we can 
determine what those impacts are and what mitigations may need 
to be put in place, and then also post-deployment to understand 
how the UAS that they are engaging are reacting, because the 
different UAS platforms actually react differently to different 
kinds of counter-UAS technology.
    Senator Carper. Great. Thanks.
    Same question, Mr. Brunner.
    Mr. Brunner. Thank you, Senator.
    Senator Carper. And be succinct and brief, please.
    Mr. Brunner. Yes, sir. Cooperation is imperative in this. I 
think this group that we have gotten together to work on this 
legislation with you all exemplifies that, that we recognize 
the necessity to work together and to cooperate. Yes, we do 
have our own lanes and our mission sets to protect the American 
people and to protect their civil liberties and their privacy. 
But we also need to come together, and we do as this 
legislation represents in a number of areas where we work 
together. And that is not just for this Committee. It is the 
FAA, it is the Federal Communication Commission (FCC), it is 
the National Telecommunications and Information Administration 
(NTIA), and then it is all of our State and local partners on 
top of that. It is imperative that--we cannot do this alone. It 
is a group effort.
    Senator Carper. All right. Thanks.
    Same question, Ms. Chang.
    Ms. Chang. Thank you, Senator. The coordination is 
extremely robust. I think my partner Ms. Stubblefield said it 
best when we first started our efforts together, that we should 
consider this a marriage not a date, and I can say from 
experience I think I see----
    Senator Carper. Do you say that?
    Ms. Stubblefield. Every day.
    Senator Carper. That is good. I have to use that. 
[Laughter.]
    Ms. Chang. The statute requires us to coordinate with the 
Department of Transportation, with the Department of Justice, 
not only in implementing and doing the risk-based assessment 
and designating facilities, but also any implementation and 
guidance that we would issue. And I just wanted to also 
emphasize that the reason that coordination is so key, we need 
this bill because right now our research and development is 
illegal. We cannot even research this technology because it is 
illegal, and, therefore, we are going to have to build on our 
counterparts at DOD and build on their efforts in order to hit 
the ground running if and when we get this authority.
    Senator Carper. Thanks, Ms. Chang. Mr. Glawe.
    Mr. Glawe. Senator, thank you for that question. I would 
just echo my colleagues. The research and development, the 
efficient aspect of developing that within the policies and 
procedures that this legislation allows us to is critical. But 
I would also foot stomp that we have to move with a sense of 
urgency. This threat is upon us. It is already here.
    Senator Carper. We have never had a witness' foot stomp 
before.
    Mr. Glawe. We have to move with a sense of urgency on this, 
and it has to be developed quickly within the framework of the 
legislation and reporting requirements back to you all. And 
then on your follow up question, I will just say quickly--and I 
think 
this is going to echo Senator McCaskill's concerns, as well as 
others'--have we gone far enough to allow information and 
countermeasures to be shared with our State, local, and private 
sector partners? I am worried about those large venue baseball 
games, football games, running events which I attend that do 
not raise to the level of Federal law enforcement, a SEAR 
event, and the protections that come with it. So I think in 
partnership as we move forward, as this first step, do we have 
the authorities in place as we move out, as the policies and 
procedures and tactical techniques are built around it.
    Senator Carper. Good. Thank you.
    Ms. Chang, what question should we be asking that has not 
been asked?
    Ms. Chang. Why do we need the broad categorical exemption 
from Title 18 versus carving out individual sections from the 
code?
    Senator Carper. OK. Thank you. Mr. Brunner.
    Mr. Brunner. Senator, my question would be: What are the 
consequences if we do not take this first step?
    Senator Carper. Ms. Stubblefield.
    Ms. Stubblefield. Why is it that the phased approach is 
really the most appropriate approach to ensuring that we do not 
create a safety issue while we are trying to solve a security 
problem?
    Senator Carper. OK, good. I am going to be asking this 
question for the record. I do not expect you to respond to it, 
but the question I will ask for the record goes back to my 
first question, and that would be: What can we do here in this 
body, the Legislative Branch, to improve and beyond this 
branch, working with you, what can we do to improve 
coordination of counter-UAS activities across Federal agencies? 
I will ask that for the record.
    I have 6 seconds left, but the Chairman is not here. So I 
will probably ask this one for the record as well.
    Senator McCaskill [presiding]. You think I am a pushover, 
don't you? [Laughter.]
    Senator Carper. No one would ever suggest that, least of 
all me.
    I will ask this one for the record as well. Members of the 
Committee have talked about this legislation being limited in 
scope regarding authorities being granted. I am going to ask 
you to share for the record, each of you, your thoughts about 
potential next steps and what is needed as we move forward.
    We thank you for being here today and thank you for your 
service, and we welcome your presence today, both on and off 
the gridiron. Thanks.
    Senator McCaskill. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Ranking Member.
    To begin with, I want to highlight for the Members of the 
Committee that the Director of the Northern Plains UAS Test 
Site, our test site located in Grand Forks, North Dakota, the 
Director, Nick Flom, submitted a short written statement for 
the record for this hearing, and he talks about some of the 
technical challenges and priorities related to development of 
counter-UAS and strategies, and I would strongly encourage you 
to read that testimony.
    For Ms. Chang, you mentioned in your written statement that 
Federal law complicates your ability to research, develop, and 
test counter-UAS technologies. Can you describe the challenges 
you face in developing and testing counter-UAS technologies and 
provide examples of technology that would help you counter UAS 
threats that you are not currently permitted to test and 
evaluate? So things that you cannot do that you would like to 
be able to do.
    Ms. Chang. Thank you, Senator. There are several things 
that we would like to be able to do that we cannot do 
currently, and the technology is constantly evolving. But our 
efforts right now, for example, to detect drones that could 
pose a threat primarily rely on scanning the radio frequency 
(RF) spectrum. That raises questions under the Wiretap Act and 
the Pen/Trap Act for use as well as spending any money on 
research or testing, because its use is illegal, so testing it 
and acquiring it is illegal.
    The same with any of the disruptive measures that we would 
use, particularly jamming, raises questions not only under 
those statutes, but also the Computer Fraud and Abuse Act, 
potentially the Aircraft Sabotage Act, several others that have 
been interpreted in new ways because of the development of 
technology. And because the technology use is illegal, we are 
not permitted under our rules to spend money to purchase 
equipment that is illegal to use, and so we cannot test it.
    Senator Hoeven. So you cannot test jamming?
    Ms. Chang. I should say I am aware of only in like a 
sterile environment we are allowed to test, but we are not 
allowed to test where there could be any secondary 
consequences, which is not very realistic if you plan to use 
it, for example, in Manhattan.
    Senator Hoeven. Well, of course. It is clearly something we 
have to test and clearly something we have to figure out how we 
can develop testing for, because, obviously, we are going to 
need it.
    Ms. Chang. Yes, sir.
    Senator Hoeven. So that is a very good point, a very strong 
point. Thank you.
    Mr. Glawe, your written statement illustrates that we are 
becoming aware of more and more cases where UASs are being used 
for illegal purposes. As the commercial UAS industry grows, 
what additional legal authorities or technical capabilities do 
you need to track UAS air traffic and separate potential 
threats from friendlies? How would you benefit from 
requirements for UAS to identify itself or from the 
establishment of unmanned traffic management (UTM), networks 
that might highlight cooperative and noncooperative aircraft?
    Mr. Glawe. Senator, from an investigative standpoint, if 
you are working a national security investigation or a criminal 
investigation, the legislation is critical to allow us the 
procedures and policies and technical capability for 
identification of those nefarious. This is going to have to be 
a layered approach with our investigative capabilities which 
currently exist in--our intelligence capabilities that 
currently exist. It will be layered into the statutory 
authorities on how we identify and disrupt threats. But due to 
the nature of the evolving and the quickness of these threats, 
this legislation is critically important for us to develop the 
technical capabilities, as the Deputy General Counsel just 
mentioned, in that environment of what we can do within the 
authorities that you all will grant us if this legislation goes 
forward, which we feel it must.
    Senator Hoeven. So you think this will help get you where 
you need to go in terms of--I mean, we are going to have to 
have a system where you have sense and avoid and, UTM that 
allows not only the sense and avoid but some ability to make 
sure that we are detecting the threats.
    Mr. Glawe. Senator, absolutely. As Chairman Johnson stated 
in his opening remarks, this is a strong first step to allow us 
the policies and procedures to layer it in with those 
investigative authorities our law enforcement organizations 
have, and if it is outside the United States, layered in with 
the intelligence services and foreign partners of how we are 
going to mitigate this threat. The threat is very broad, 
permissive, and significant.
    Senator Hoeven. Ms. Stubblefield, I am pleased to note from 
your written statement that the FAA is prioritizing ways to 
both remotely identify UAS aircraft and also development of the 
UTM system.
    Ms. Stubblefield. Yes.
    Senator Hoeven. So both the systems and the technology, 
again, that will sort out friendlies and threats. But you are 
focused on the airspace 400 feet and below, it looks like, so 
my question is: What about 400 feet and above? Are you looking 
at that as well for any criminal or terrorist type--any kind of 
threat activity?
    Ms. Stubblefield. Thank you, Senator Hoeven, for 
highlighting the remote identification requirement. From the 
FAA's perspective, we would like to see that requirement for 
all UAS. As we consider putting together the rulemaking, which 
we are working on as aggressively as we can right now, we are 
certainly looking at putting requirements on operators, 
manufacturers, such that when these come out of the box, there 
is a capability that is there, which is going to help 
regardless of where UAS operate, whether it is 400 feet or 
below or as we move into the middle or even high altitudes. 
Those UAS that can function at, let us just say to segment it, 
18,000 feet and above, so in Class A airspace, those are going 
to be larger aircraft that will be certified. We will have 
requirements in that airspace to be communicating with air 
traffic control.
    There is no doubt that we have challenges around the 
detection of what are generally a low and slow radar cross-
section of UAS. However, those larger UAS, we certainly have a 
much better capability in terms of detection as we stay down 
into the lower altitudes and, again, not to provide too much 
information about our security posture, but certainly we think 
remote identification is going to be key because those who are 
not cooperating in the environment that will hopefully, as our 
partners derive the authority to be able to deploy detection, 
they will stick out, and so we will know who is supposed to be 
there part of, as you mentioned, the unmanned traffic 
management, the suite of tools and capabilities that will go 
with that, we will know who is authorized to be there, who 
should be operating and is operating compliantly, and those who 
are outside of that hopefully will be detected by the systems 
that our partner security agencies will be able to field.
    Senator Hoeven. I am out of time, but, again, I would ask 
that all the witnesses please take a look at Nick Flom's 
testimony. I think it is helpful in your endeavors.
    Thank you.
    Chairman Johnson. Thank you, Senator Hoeven.
    Ms. Chang, can you describe the inhibitions of Title 18 to 
non-lawyers? I am one of them. Just talk about why law 
enforcement is going to be really constrained unless they get 
this type of waiver.
    Ms. Chang. Certainly, Senator. The primary concern is 
technology is evolving so rapidly, as you pointed out, and the 
law is just not keeping up right now. And so we had discussed 
the detection measures that we try to use, which most of them 
operate by scanning the RF spectrum. That is naturally going to 
raise questions under the Wiretap Act that was written in the 
1960s, the Pen/Trap Act from the 1980s. They just were not 
initially written for this, and so what is considered an 
electronic communication is arguably swept up here, but also 
our other measures, any effort that we would take to safely 
bring that device down could potentially raise questions under 
a whole host of statutes. And it is changing every day. We 
would not have originally thought that these UASs would be 
considered--what used to be just model airplanes would be 
considered aircraft under the Aircraft Sabotage Act and, 
therefore, bringing it down if it causes damage could create 
criminal liability for our officers. We would not have believed 
even recently, until recently, that these would be guided by 
satellites, implicating provisions about interfering with 
satellites. And the problem is just changing every day.
    And so I cannot say with confidence today how many of these 
statutes could be implicated as this technology continues to 
evolve.
    Chairman Johnson. I think we are all concerned about civil 
liberties. There is no doubt about that. But, for example, 
every day law enforcement might be confronted with having to 
disarm a criminal, correct? They do not need a warrant to take 
away somebody's gun at that point in time. Why is this that 
much different? I will go to you, Mr. Brunner.
    Mr. Brunner. Well, Senator, from a non-lawyer perspective--
--
    Chairman Johnson. We will switch over to Ms. Chang 
afterwards, but somebody with boots on the ground.
    Mr. Brunner. So the concern for the boots on the ground, 
Senator, is the way that the Title 18 statute is written right 
now and some of the other statutes. We are concerned that the 
individual, the agents on the ground, the officers, however you 
want to phrase it, would be liable by taking action against 
these targets, which no one has authority to do right now. So 
if they were to take action, there is the potential there that 
the Department of Justice or State or local authorities could 
bring----
    Chairman Johnson. I understand, but the analogy really is 
you have a potential threat now is a drone. You have 
intelligence, actionable intelligence. You realize this is a 
problem. First of all, it is temporary restricted airspace. 
Nobody should be flying a drone. Practically, putting the law 
aside, is there really a difference between law enforcement 
disarming somebody without a search warrant or going through 
any kind of court procedure versus law enforcement acting in 
that capacity?
    Mr. Brunner. The difference is on the capabilities that the 
law enforcement officer or special agent has on hand to 
mitigate that threat. So downing an aircraft by an agent on the 
street or a police officer on the street is going to be 
extremely difficult. So that is the hardest challenge right 
now. If I am an officer or an agent on the street and I see a 
threat, I am going to do whatever I can to mitigate that 
threat, regardless of what the statute might say at that time, 
if I feel like I am protecting others. But the issue really for 
them is they do not have the capabilities nor do we right now 
without this legislation to actually do that.
    Chairman Johnson. So, again, I understand the capability. 
Again, I am just trying to connect the dots in terms of an 
analogy. We ought to give law enforcement the capability, just 
as they have the capability of disarming somebody dangerous, 
without going through a court procedure and getting a warrant, 
they ought to have that same authority from my standpoint.
    Ms. Chang, do you want to comment on this?
    Ms. Chang. Yes, Senator, and I am glad you raised the 
Fourth Amendment because the Fourth Amendment still applies, 
and this statute does not change that. And so if, for example, 
a police officer were breaking up a fight, they would be under 
the Fourth Amendment. They would be using force. And it would 
have to be reasonable under the Fourth Amendment. They would be 
seizing potentially persons or property, and that would have to 
meet the reasonableness standard under the circumstances.
    This statute actually sets a higher bar in that not only 
would we have to comply with the Fourth Amendment, but also 
take actions only as necessary to mitigate the threat. And once 
that threat is over, then our authority under this statute 
would end. And, again, the normal rules would still apply.
    Chairman Johnson. Some of the pushback we have gotten from 
some of the other committees of jurisdiction has to do with the 
risk-based assessment that is required under the statute. We 
have left that basically to the agencies to determine what that 
risk-based assessment would be. I think some of the other 
committees might be looking for greater detail and more 
prescriptive language in terms of what that risk assessment is. 
Can you just address that issue?
    Ms. Chang. Certainly. The reason that we believe that this 
sets the appropriate balance, there are a number of constraints 
in the statute governing how we have to coordinate and 
oversight. But we believe that keeping a somewhat flexible 
approach because of the developing threat is important. We will 
be, of course, coordinating with our FAA partners, and every 
step we take will be with them. But the threat is evolving so 
quickly that if we are so carefully constrained in statute, we 
have been asked, for example, if we should define ``threat'' in 
the statute. I am only aware of one statute that does that. 
That is the Cybersecurity Information Sharing Act (CISA) that 
defines ``cybersecurity threat,'' but typically that is left to 
the operators because we have the expertise, and like I said, 
it is developing so fast. We do not want to have to be back 
here asking Congress for a new law 6 months from now.
    Chairman Johnson. Which kind of gets me, again, to the very 
limited nature of this, because I think it is important to 
pound this point home. This is limited to risk related to the 
following missions: U.S. Coast Guard and U.S. Border Patrol in 
terms of their security operations, including security of 
facilities, aircraft, and vessels; to U.S. Secret Service 
protection operations; to Federal Protective Services (FPS) 
protection of DHS facilities; to U.S. Marshals and DOJ 
protection of its facilities and court personnel; to the Bureau 
of Prisons, protection of their high-risk facilities; then 
security for special events, and there we are talking about 
visits by the Pope or other special events that are going to be 
assessed through this risk-based assessment; and then when a 
State Governor or an Attorney General requests assistance. But, 
again, the local authorities will have no authority whatsoever 
to mitigate the threat. Then active Federal law enforcement 
investigations, emergency responses, security operations 
carried out by DHS and DOJ, and then just reacting to known 
national security threats that could involve unlawful use of 
drones. Again, this is a really narrow authorization.
    Who would like to talk--again, to reinforce and clarify, 
this is just a first step. Maybe, Ms. Stubblefield, you can 
talk about the first-step nature of the authority given to the 
Department of Defense, because in our briefing yesterday, it 
really does sound like those agencies, you are working very 
closely with them, working through the complexity of this, 
understanding how difficult this is, but also we are just 
taking the first steps down that path, even with DOD having 
this authorization for, what, 2 years? So can you just talk 
about that?
    Ms. Stubblefield. Yes, sir, Mr. Chairman, and thank you. 
The complexity, as you cited, of this type of situation is you 
are taking technologies that have largely been used in conflict 
zones and the military space and bringing them into the civil 
environment. And because there have been so few agencies that 
have the authority that DHS and DOJ are seeking here, it has 
been extremely challenging for anyone, whether it is Federal, 
State, or local, to do that testing in the civil airspace, 
because the technologies that we have, by and large, do have 
impacts on avionics and air navigation service systems. And so 
we have been working very closely with DOD in the pre-
deployment phase. Part of that risk assessment is determined. 
What is the airspace around that facility? What does the air 
traffic look like? What is the appropriate technology? What 
exactly in that space are you trying to protect? Is it a point 
defense? Is it an area defense? All of those types of factors 
go into determining how we appropriately scope any flight 
restrictions, what the concept of operations (CONOPS) is for 
the given agency to deploy that system, so that we can then 
mitigate any of the spillover effects into the civil 
environment.
    As Mr. Brunner articulated earlier, the FCC and NTIA are 
also involved in that, because those impacts can go beyond just 
the aviation spectrum.
    Chairman Johnson. So this has been so far about a 2-year 
process.
    Ms. Stubblefield. Yes, sir.
    Chairman Johnson. And you are not at the endpoint, not by a 
long stretch, right?
    Ms. Stubblefield. As you said, sir, this is an incremental 
phased approach. As the Department of Defense and the 
Department of Energy understand what these technologies look 
like to be deployed by their folks on the ground in the civil 
environment, they are taking a very measured approach to that 
as well, because they are also using facilities that have their 
own constraints, whether they be a facility that has nuclear 
weapons or other types of technologies and sensitive materials 
that may react to the types of technologies they are looking to 
use to counter. All of those things have to be weighed out, so 
it is a very slow, methodical approach to ensure that when they 
get to turning them on operationally, we have done all we can 
to ensure we are not creating any safety impacts but are, in 
fact, just focusing on taking down that security risk.
    Chairman Johnson. And, again, to clarify and respond to the 
letter I received from the ACLU, DOD only has authority around 
a very limited number of its facilities, correct?
    Ms. Stubblefield. That is correct, Senator.
    Chairman Johnson. They have no authority tacked against all 
the things I just detailed in terms of our bill.
    Ms. Stubblefield. That is correct.
    Chairman Johnson. The Coast Guard, Secret Service, U.S. 
Marshals, Bureau of Prisons, special events, DOD has no 
authority whatsoever.
    Ms. Stubblefield. That is correct, sir.
    Chairman Johnson. I think it is also important to point out 
that we did draft this law to pretty well make the authority 
identical to DOD so that different agencies now working in 
cooperation are not inhibited by slightly different types of 
authority which could overly complicate this, correct?
    Ms. Stubblefield. Correct, sir. And it is that mirroring of 
the coordination and the risk assessment in both of those 
places as well as the other features that for the FAA who is 
involved with everyone who is going to deploy this makes it for 
us a more consistent process as well to ensure we are uniformly 
looking at the impacts on the airspace and aviation safety.
    Chairman Johnson. In yesterday's briefing, I think a good 
line of questioning--I think it was Senator Harris who was 
talking about, OK, if we have a local authority and they hear 
and perceive a risk, where is the point of contact going to be? 
And we are talking about a number of different agencies here in 
the Federal Government that were providing this authority. Does 
anybody have an opinion on where that point of contact should 
be?
    Mr. Glawe. Chairman Johnson, I think developing the 
policies and procedures around the capability is going to be 
critical. Under a national security event, we currently have 
the Critical Incident Response Group along in partnership with 
the DHS operational equities that are very clarified and 
defined, very defined, as the Deputy Assistant Director from 
the FBI will say. But when we are talking about protection of 
critical infrastructure such as a petrochemical plant in 
Houston or other critical infrastructure that this statute 
would allow us to do risk assessments and see if there has to 
be protection, that is where we are going to have to develop 
other procedures so we get the intelligence to the operator to 
make that decision to take whatever countermeasures would be 
appropriate for that, and we are going to have to change the 
structure of how we do business in this arena, and this 
legislation is a key step to getting the policies, procedures, 
and legal authorities wrapped around it so we can make those 
decisions, because you are absolutely right, the decision to 
actually action a UAS is going to be quick, dynamic, and the 
threat is going to be evolving fast, and we are going to have 
to be moving into that space very quickly.
    Chairman Johnson. So it is just too soon in this process to 
really start ferreting out points of contact, because it could 
be points of contact based on the industry, based on the 
location, and eventually filtering back to somebody. But you 
have to set up that process.
    Mr. Glawe. Chairman Johnson, you are absolutely right. When 
we are talking about deploying some sort of a force or a 
technical capability on an object, which the Deputy General 
Counsel can explain more from the legal standpoint, we are 
going to have to have very specific guidelines, procedures, in 
how that is deployed, what authorities of what organizations 
are there to deploy it--Coast Guard, Border Patrol, Office of 
Air and Marine, the FBI, the Secret Service if it is at a 
protectee's location. Defining that scope and spectrum based on 
the technological capability is going to be a critical 
component to that.
    Chairman Johnson. I have only got one more question for Ms. 
Stubblefield, but I am going to close this out by asking all of 
you to respond: Is there anything that we have not talked about 
that, as we are going through this, you have just been itching 
to make the point and/or something that really needs to be 
clarified?
    But, first, Ms. Stubblefield, I am going back to 
registration. Again, I think there is a huge gap there. It is, 
by and large, voluntary. Correct? It might be required by law, 
but it is not really required by law at the point of purchase. 
First, correct me if I am wrong there. And, second, what are 
the penalties if people do not register? And what is the 
enforcement of it?
    Ms. Stubblefield. Yes, sir, you are correct that we are 
dependent upon people complying with the rules, to follow the 
rules and register their aircraft before they operate them. But 
that goes across all sectors of aviation, not just the unmanned 
aircraft.
    In terms of the penalties, yes, there are penalties, civil 
penalties for failing to register aircraft, and I believe there 
actually may be a criminal aspect to that as well. For the 
FAA's part, responsible for the civil penalty, if we are made 
aware that someone has operated an aircraft that is not 
registered, we conduct an investigation and then determine 
based on the circumstances whether that is appropriate for 
enforcement and levying of civil penalties, which the FAA has 
conducted approximately 73 enforcement cases at this point.
    Chairman Johnson. So 73 out of about 4 million different 
drones. In yesterday's briefing, we heard of thousands of 
problems, correct? I mean per year, thousands of suspected 
improper use of drones?
    Ms. Stubblefield. And precisely to your point, Mr. 
Chairman, that is why the FAA has focused firmly and quickly on 
remote identification. That is going to enable us to identify a 
drone that is operating with the operator or the owner and be 
able to then follow up for education, for enforcement, for 
support to our law enforcement colleagues to be able to 
actually ascertain what was the intention and what, if any, 
follow up action needs to be taken, be that, like I said, 
education, enforcement, or criminal prosecution.
    Chairman Johnson. Again, I am just trying to lay out the 
reality. This is how many improper uses of drone we detect, 
over how many years engaged in 73 enforcement actions. So there 
is a huge gap between what the reality is and what the 
vulnerability is, and what we really can do from the standpoint 
of governmental authority to really address that fact.
    Let me start with Mr. Glawe then. Again, anything that just 
has to be said, needs to be clarified here?
    Mr. Glawe. Chairman Johnson, no, I think we have covered 
all the threat vectors. I would just say again this threat is 
significant and it is imminent. It is upon us. Terrorist 
organizations, foreign intelligence organizations, 
transnational criminal organizations, criminal actors can use 
this technology and are using this technology on the homeland 
and abroad. This legislation is a very strong first step to get 
the ball rolling on the policies, procedures, technical 
capabilities, and legal authorities to allow law enforcement 
officers in the United States to take the actions needed to 
make the homeland safe.
    Chairman Johnson. Strong but still minimal, correct? I 
mean, this is not going overboard. This is just giving you 
baseline capability that you need as that first step.
    Mr. Glawe. It absolutely is. As a former law enforcement 
officer, I think we are going to need to revisit this as we 
know the vulnerabilities will change.
    Chairman Johnson. I think there would probably be a lot 
more, first, discussion. We need to really discuss the 
complexity of this issue. Ms. Chang.
    Ms. Chang. Mr. Chairman, the clarification that I would 
like to make is about the application of the broad categorical 
exemption for Title 18. We have been asked several times why we 
cannot just carve out those statutes that I just listed and say 
we are exempt from those versus the entire criminal code, and 
there are three primary reasons for that. The first is the 
certainty that we have discussed. If we do not have certainty, 
we have no solution at all because our officers right now 
cannot move forward, and this technology is just evolving so 
fast. And that is why the Administration strongly prefers the 
clear approach in this Committee's bill that is from the same 
approach given to DOD and DOE in the NDAA. And the second is 
fairness. We have been told repeatedly that DOD is somehow 
different, and in their warfighting capacity, they are. But for 
that authority, they did not need this NDAA authority. The NDAA 
that we have been discussing, that piece gave them authority to 
operate domestically, force protection under the Fourth 
Amendment just like our folks. And if our front-line officers 
in uniform and out of uniform are treated differently and given 
less protection, that sends a message they are less valuable 
than their DOD partners.
    And the third is, as you point out, Mr. Chairman, the 
interoperability. There was a news article this morning in 
Reuters about a 2017 incident, an Army Black Hawk that a drone 
collided with it, and this happened at an NSSE. This was a 
National Security Special Event over the U.N. General Assembly. 
In that instance, if we did not have the same authority and the 
same legal regime as DOD, we would not have been able to work 
together and coordinate like we do on NSSEs in other areas, and 
so we need to be able to work together as one team.
    Chairman Johnson. Those were excellent clarifications. Mr. 
Brunner.
    Mr. Brunner. Chairman, I want to start by thanking you very 
much for holding this hearing today. The Department really 
appreciates the ability to be here in front of you, so thank 
you for that.
    I also want to emphasize our commitment to implementing 
this authority in an extremely vigorous manner with respect to 
privacy and civil liberties. I want to make that point for the 
record.
    And then to a question you asked previously, where do we go 
from here? We are in extensive conversations with our State and 
local partners about how we can broaden this authority and how 
we can bring others into the fold. And we talk to the National 
Football League (NFL) and we talk to Major League Baseball, and 
we talk to the Commercial Drone Alliance and the American 
Modelers Association, just to make sure everybody is on board 
of where we are going, what we are trying to do, and how we can 
make this better as we progress.
    So thank you again very much for the opportunity today.
    Chairman Johnson. Well, thank you for your service. Ms. 
Stubblefield.
    Ms. Stubblefield. Again, thank you very much, Chairman, for 
the opportunity to participate today. As one clarification, I 
want it to be crystal clear, sir, that the FAA supports our 
national security partners in DHS and the Department of Justice 
gaining this authority. There is a lot to be learned about how 
to properly use it in the national airspace system and in civil 
environments, and this authority will give us the opportunity 
to start to move farther down that road and hopefully provide a 
road map ahead as we phased-approach move this authority 
forward.
    I would like to mention one thing, though, because there is 
a concern about what are we doing for our State and local 
colleagues. Remote identification will be very key to them. In 
our aviation rulemaking committee, we brought in State and 
local law enforcement, and they said, ``We need to be able to 
find the guy who is operating that drone,'' because in many of 
these situations it is impeding emergency response, police 
activity, or response to an incident on the highway or 
something of that nature, where time is of the essence to get 
critical help into that area. And so that is why we are 
focusing on remote identification.
    The one place we have not talked about today--and you 
talked about gaps that we have--it is the fact that, 
unfortunately, right now we do not have the authority to 
require things like remote identification and basic airspace 
rules across the totality of all UAS operators. We have an 
excellent community of aviation enthusiasts who operate models. 
Unfortunately, we are in a very different place than where we 
were in 2012 where we have a lot of people who are buying a 
UAS, do not now understand that they are part of the national 
airspace system and are injecting safety and security risk into 
the system. And our inability to ensure that they understand 
that they have to follow the rules, that nuance has created a 
lack of compliance. And so that is a space where we still need 
some assistance in being able to put those minimum requirements 
across all operators in the national airspace system, and that 
will also help with our security partners and their ability to 
discriminate threat. The more people we can move into that 
compliant category, the fewer folks that our security partners 
have to worry about and be focused on.
    Thank you, Mr. Chairman.
    Chairman Johnson. Well, the purpose of this hearing, like 
the purpose of just about every hearing of this Committee, is 
the first step in solving a problem, the problem-solving 
process, it is really gathering the information, identifying 
the problem, admitting we have one. I think that has been the 
problem, that we have not just collectively as a society 
understood that, yes, these drones are great, there is so much 
promise, and they can be a lot of fun, but they pose a real 
risk, and our laws just have not kept up with that reality.
    It is true that FAA does support this legislation, correct? 
Go ahead.
    Ms. Stubblefield. Absolutely, Chairman Johnson, it is 
critical that our partners have the tools they need, because a 
robust security framework is critical to moving forward with 
all the promise that you described that UAS bring to our 
economy and to public safety.
    Chairman Johnson. Thank you all for your testimony, for 
your service to this Nation. It would be helpful if, working 
with your other committees of jurisdiction, if asked to brief 
Committee Members, Chairmen, that you do so very quickly. We do 
have a unique opportunity. I did not realize it happened so 
quickly, but I am going to do everything I believe my Ranking 
Member is on the same page; I think my cosponsors are as well--
about getting this attached to the NDAA so it can become law 
and this first step can actually be initiated, because I think 
it is just critical. Within the dysfunction that is the U.S. 
Congress, I would hate to miss that opportunity, then try and 
pass this in some way, shape, or form, because, again, we just 
saw from the ACLU, there will be critics of this, I think 
completely unjustifiable criticism of it, but this is a really 
great opportunity. So anything you can do within your agencies 
to help grease the skids for attachment to NDAA would be very 
appreciated.
    Again, thank you for your testimony, for your service. The 
hearing record will remain open for 15 days, until June 21st at 
5 p.m., for the submission of statements and questions for the 
record. This hearing is adjourned.
    [Whereupon, at 11:49 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
